Supreme Court Litigation Clinic
Crown Quadrangle
559 Nathan Abbott Way
Stanford, CA 94305-8610
Tel 650 724.1900
Fax 650 723.4426
sup.ct.clinic@law.stanford.edu

November 6, 2020

Via Hand Delivery
Honorable Scott S. Harris
Clerk of the Court
Supreme Court of the United States
1 First Street, NE
Washington, DC 20543
Re:

Darrell Hemphill v. New York
No. 20-____

Dear Mr. Harris,
Please find forty (40) copies of Darrell Hemphill’s Petition for a Writ of
Certiorari in the above referenced matter, together with a filing fee in the
amount of $300 and certificates of compliance and service.
Also enclosed are additional copies of the petition, which we request that
you file-stamp and return to the messenger presenting this filing today.
Thank you very much for your time and assistance in this matter.
Very truly yours,

Jeffrey L. Fisher

Counsel for Petitioner

Enclosures
cc:

All Counsel

Community Law ♣ Criminal Defense ♣ Environmental Law ♣ Immigrants' Rights
International Human Rights and Conflict Resolution ♣ Juelsgaard Intellectual Property and Innovation
Organizations and Transactions ♣ Religious Liberty ♣ Supreme Court Litigation ♣ Youth and Education Law Project

